1)8-1016

filed
FEB 11 2020

SnWfte

Supreme Court of tfye ®niteb latest

JEFFREY KIRSCH,
Petitioner,
v.
REDWOOD RECOVERY SERVICES LLC
and ELEVENHOME LIMITED,
Respondents.

On Petition For Writ Of Certiorari
To The Supreme Court Of Nevada

PETITION FOR WRIT OF CERTIORARI

Jeffrey Kirsch
ProSe
77 Harbor Dr.
Key Biscayne, FL 33149
two@beach@aol.com
305-498-8265

RECEIVED
FEB 14 2020
OFFICE OF THE CLERK
SUPREME COURT IIS

/

1

QUESTIONS PRESENTED
1.

Did the District Court violate the Due Process
Clause by barring Defendant-Petitioner from pre­
senting any evidence in his defense at trial, a sanc­
tion that was imposed for his failing to produce an
individual over whom he had no legal control for a
deposition, despite the absence of articulable prej­
udice to the other side?

2.

Does the Due Process Clause require an assess­
ment of a defendant’s nationwide business activi­
ties before a court may find that it has general
personal jurisdiction over the individual on the
basis of a few, scattered business contacts with the
state?

i

11

STATEMENT OF RELATED CASES
The underlying District Court case was the subject
of a prior writ petition docketed as Westbourne Capital,
LLC v. Dist. Ct. (Redwood Recovery Services, LLC), Su­
preme Court Case No. 73576—notice in lieu of remit­
titur filed on February 6, 2017,
A separate Eighth Judicial District Court case in­
volving some of the same parties, Redwood Recovery
Services, LLC v. Jeffrey Kirsch, Case No. A-ll-652803F, was the subject of a prior w:'it petition docketed as
Rock Bay, LLC v. Dist. Ct. (Redwood Recovery Services,
LLC), Supreme Court Case No. 66728—Remittitur
filed April 29, 2013. This separate case was also the
subject of a prior appeal dockete d as Kirsch v. Redwood
Recovery Services, LLC, Supreme Court Case No.
61646—remittitur filed on February 23,2017.
The underlying case currently has two motions
pending:
•

Statebridge Company’s Rule 59 Motion to
Amend the Judgment, or, in the Alternative
Rule 60 Relief from Judgment (filed 07/14/17)
(Exhibit 3); and

•

Westbourne, Rock Bay, Sloane Park, Vizcaya,
and OppsREO’s Motion for Rehearing/Recon­
sideration of Judgment and Findings of Facts
or, Alternatively, Motion to Alter or Amend
Findings of Facts and Conclusions of Law
(filed 07/14/17) (Exhibit 4).

The separate Eighth Judicial District Court case
referenced above, Redwood Recovery Services, LLC

Ill

STATEMENT OF RELATED CASES—Continued
v. Jeffrey Kirsch, Case No. A-11-652803-F remains
pending with an inactive status.
The decision by the Nevada Supreme Court deny­
ing Defendant-Petitioner Jeffery Kirsch’s (“Mr. Kirsch”)
appeal is reported at Kirsch v. Redwood Recovery Servs.,
LLC, 2019 Nev. Unputj. LEXIS 1260. The Nevada Su­
preme Court issued that decision on November 15,
2019. The Order is attached at Appendix (“App”) at 1.

a

IV

TABLE OF CONTENTS
Page
OPINIONS BELOW...............................................
1
JURISDICTION.....................................................
1
CONSTITUTIONAL PROVISIONS INVOLVED....

1

STATEMENT OF THE CASE.]................
REASONS FOR GRANTING T^HE WRIT

2

I. The Court Should Grant Certiorari to Clar­
ify the Standards for Imposing Discovery
Sanctions That Amount to an Entry of De­
fault ...............................................................
A. The Court Should Clarify That a Lower
Court May Not Bar a Party from Sub­
mitting Evidence ini His Defense for
Failing to Fulfill a Legally Impossible
Discovery Order.....................................
B. The Court Should Clarify That a Show­
ing of Prejudice is Necessary to Issue
Sanctions Barring a Party from Submit­
ting Evidence in His Defense...............
C. The Court Should Clarify That Courts
Must Consider the Feasibility or Fairness
of Alternative, Less Severe Sanctions Be­
fore Barring a Party from Submitting
Any Evidence in Their Defense............
II. This Court Should Grant Certiorari to Af­
firm That General Jurisdiction Will Only
Attach Where a Substantial Proportion of
Defendant’s Activities Are in That State....
CONCLUSION

8

8

10

13

15

16
20

V

TABLE OF CONTENTS - Continued
Page
APPENDIX
t

Supreme Court of Nevada, Order of Affirmance,
November 15, 2019........................................... App. 1
Clark County District; Court, Findings of Fact
and Conclusions of Law, June 26, 2017.......... App. 5
Clark County District Court, Judgment and Per­
App. 70
manent Injunction, June 26, 2017

VI

TABLE OF AUTHORITIES
Page
Cases
Asahi Metal Indus. Co. u. Superior Court of Cal.,
480 U.S. 102 (1987)...........................................

16

ASSE Int’l, Inc. v. Kerry, 803 F.3d 1059 (9th Cir.
2015)....................................... ...........................

8

Burger King Corp. v. Rudzewidz, 471 U.S. 462
(1985)...................................... j.......................... 16,19
Daimler AG v. Bauman, 1871 L. Ed. 2d 624
(2014)...................................... I........................... 17,18
Dubai Islamic Bank v. Citibank, t^.A., No. 99 Civ.
1930 (RMBXTHK), 2002 U.S. Dist. LEXIS
9794 (S.D.N.Y. May 28, 2002)...........................

12

Dubai Islamic Bank v. Citibank, N.A., No. 99 Civ.
1930 (RMBXTHK), 2002 WL 1159699 (S.D.N.Y.
May 28, 2002)....................................................

12

Goodyear Dunlop Tires Operations, S.A. v. Brown,
131 S. Ct. 2846 (2011)....................................... 17,18
Helicopteros Nacionales De Colom. v. Hall, 466
U.S. 408 (1984)..................................................

16

Ins. Corp. of Ir. v. Compagnie Des Bauxites De
Guinee, 456 U.S. 694 (1982).............................. 9,13
JSC Foreign Econ. Ass’n Technostroyexport v. Int’l
Dev. & Trade Servs., 220 F.R.D. 235 (S.D.N.Y.
2004)................................................................... 11,12
Okaw Drainage Dist. v. Nat’l Distillers & Chem.
Corp., 882 F.2d 1241 (7th Cir. 1989)................

15

Vll

TABLE OF AUTHORITIES—Continued
Page
United States v. Afrarn Lines, Ltd., 159 F.R.D.
408 (S.D.N.Y. 1994)............................................

11

Young v. Johnny Ribeiro Bldg., 106 Nev. 88
9,10,15
(1990)
Other

i

28 U.S.C. § 1257 (2018).

1

Rule 30(b)(6)..........L.

6

U.S. Const, amend. XIV

1

1
OPINIONS BELOW
The decision by the Nevada Supreme Court deny­
ing Defendant-Petitioner Jeffery Kirsch’s (“Mr. Kirsch”)
appeal is reported at Kirsch v. Redwood Recovery Servs.,
LLC, 2019 Nev. Unpub. LEXIS 1260. The Nevada Su­
preme Court issued that decision on November 15,
2019. The Order is attached at Appendix (“App.”) at 1.

JURISDICTION
This Court has jurisdiction over the instant Peti­
tion pursuant to 28 U.S.C. § 1257. This petition is
timely insofar as Mr. Kirsch’s appeal to the Nevada Su­
preme Court was denied on November 15, 2019, and
Mr. Kirsch has filed the instant Petition within 90 days
of that date.

CONSTITUTIONAL PROVISIONS INVOLVED
The Fourteenth Amendment of the United States
Constitution provides, in relevant part:
No State shall . . . deprive any person of life,
liberty, or property, without due process of
law. . . .

2

STATEMENT OF THE CASE
This case arises out of an attempt to sue Mr. Kirsch
in Nevada—a state in which he neither resided, did
any business, nor had any personal ties—to collect on
a judgment issued in Florida. Despite having no ties to
the state, the Nevada district court not only found it
appropriate to exercise personal jurisdiction over Mr.
Kirsch, but imposed discovery sanctions that made it
impossible for him to rebut that finding.
On December 6, 2011, Plaintiffs Redwood Recov­
ery Services, LLC (“Redwood”) and Elevenhome Lim­
ited (“Elevenhome”), collectively (“Plaintiffs”), filed an
Application of Foreign Judgment in Nevada district
court in order to domesticate two Florida state court
judgments awarded against Mr. Kirsch, American Res­
idential Equities, LLC (“ARE”), and American Residen­
tial Equities LIII, LLC (“ARE 53”)1 in March 2011, in
an amount of approximately $17 million.
On March 22, 2012, Plaintiffs also filed an Affida­
vit and Notice of Entry of Foreign Judgement in Mich­
igan seeking to collect the amounts awarded by the
Florida court from ARE.
On August 13, 2012, a court in Michigan found
that ARE was the Trustee, not owner, of the assets that
Plaintiffs sought to collect and issued a permanent

1 These Defendants are collectively referred to hereinafter as
“Judgement Debtors.”

3

injunction barring Plaintiffs from collecting those as­
sets.2
On May 20, 2015, Plaintiffs filed the instant com­
plaint alleging that the Judgement Debtors had fraud­
ulently transferred the assets subject to the Florida
Judgment to a group of companies (hereinafter “Westbourne Defendants”),3 whom the Complaint alleged were
Judgement Debtors’ alter-egos and under the owner­
ship and control of Kirsch.
On August 21, 2015, Kirsch and the Westbourne
Defendants moved to dismiss for lack of personal juris­
diction on the grounds that none of the Defendants re­
sided or did business in Nevada. On February 23,2016,
the district court denied that motion “without preju­
dice to further development and subject to Redwood’s
burden on this issue at the time of trial.”4
Unconstitutional Sanctions Orders
Thereafter, the parties began to engage in discov­
ery. During this time, counsel for the Westbourne De­
fendants withdrew and, unable to afford counsel, Mr.
2 See Order for Permanent Injunction, Redwood Recovery
Services, LLC v. Kirsch, et al., Case No. 12-004030 (Michigan, 3rd
Judicial Circuit Court, August 13, 2012).
3 The Westbourne Defendants consist of Westbourne Capital,
LLC, Rock Bay, LLC, Sloane Park, LLC, Vizcaya Investments, LLC,
and OppsREO, LLC.
4 February 23, 2016 Notice of Entry of Order Denying Defs’
(1) Motion to Dismiss Pi’s Complaint or Alternatively, to Stay Pro­
ceedings; and (2) Motion to Dismiss for Lack of Personal Jurisdic­
tion.

4
Kirsch decided to proceed pro se . Due to the breakdown
in their relationship with counsel and the need to find
new counsel, none of the Defendants were able to keep
to the discovery schedule as established in the October
9, 2015 Rule 16 Order. On May 27, 2016, Plaintiffs
moved for sanctions, arguing that (1) the Defendants
deliberately failed to meet production deadlines in an
effort to thwart discovery, (2) Defendants deliberately
failed to produce William Hirschkowitz, the once CFO
of several Kirsch entities, for deposition, (3) Kirsch
failed without justification to appear for his deposition,
and (4) because Kirsch exercised complete control over
the Westbourne Defendants, the latter’s discovery mis­
conduct was attributable to him.5
On July 18, 2016, the District Court granted in
part and denied in part Plaintiffs’ request for sanc­
tions. That Order (hereinafter, “First Sanctions Order”)
concluded that Kirsch “owns and/or controls ‘the Westbourne Defendants’ as well as ARE and ARE 53, and
that he had “ultimate decision making authority for
all Defendants.” July 18, 2016 Order at 2-3. Thus, the
Court held that all of Westbourne’s discovery miscon­
duct would be attributable to Kirsch. It held that “all
Defendants violated [the] Court’s [October 9, 2015]
scheduling order and NRCP 16.1 by refusing to pro­
duce any documents as part of an initial disclosure.”
Id. at 3. The District Court faulted Defendants for
“refusing] to produce Hirschkowitz for deposition,” id.
at 4, and faulted Kirsch for failing to appear for his
6 Motion to Strike Answers to Complaint and for Entry of De­
fault, filed May 27, 2016.

5
deposition. Id. at 5. It also found that all Defendants
had failed to respond to Plaintiffs’ February 26, 2016
requests for production of documents. Id. at 7. The
Court characterized these actions as “intentional, will­
ful, flagrant, unreasonable, vexatious, abusive and in
bad faith, undertaken deliberately with intent to im­
pede all discovery efforts.” Id. at 9. The District Court
rejected Defendants’ argument that Plaintiffs did not
suffer prejudice: “They presented no evidence of such
other discovery, and any such discovery would have
been many years previous on unrelated issues. Fur­
ther, Kirsch pleaded the Fifth Amendment Privilege
against self-incrimination repeatedly in prior mat­
ters.” Id. at 11. By contrast, the Court described the
Plaintiff as “reasonable in how it pursued discovery
and attempted resolution of the discovery failures be­
fore bringing this Motion.” Id. at 10.
In relevant part, that Order:
(1) Struck ARE and ARE 53’s answers to the com­
plaint and ordered default judgment against
both entities;
(2) Directed Kirsch and the Westbourne Defend­
ants to provide documents requested in the
February 26,2016 NRCP 34 requests no later
than July 25, 2016;
(3) Overruled all of Kirsch and the Westbourne
Defendants’ objections to the February 26,
2016 NRCP 34 requests as a sanction;

6
(4) Authorized Plaintiffs to notice depositions for
Hirschkowitz and the Westboume Defendants’
Rule 30(b)(6) representatives in Nevada;
(5) Ordered Kirsch and the Westbourne Defend­
ants to “produce Hirschkowitz and cause him
to appear personally”;
(6) Ordered Kirsch and the Westboume Defend­
ants to bear the costs of the depositions.
The District Court denied the request to strike
Kirsch and the Westbourne Defendants’ answers with­
out prejudice to Plaintiffs filing a renewed motion.
On August 30, 2016, Plaintiffs filed a Renewed
Motion to Strike Defendants’ Answers and for Entry
of Default, arguing that Defendants had produced
discovery late and failed to produce Hirschkowitz for
deposition.
It largely granted the order as to both the West­
bourne Defendants and Kirsch. It found that Kirsch
had violated the First Sanctions Order by refusing to
appear for his deposition. Nov. 24, 2016 Order at 2. It
recognized that Kirsch had offered an alternative date,
but deemed that a ruse because Kirsch knew that
Westbourne’s counsel was unavailable on those dates.
Id. at 3. The Court found that Kirsch violated the First
Sanctions Order by failing to produce Hirschkowitz for
deposition and for failing to respond to Plaintiffs’ in­
terrogatories and requests for production. Id. Finally,
the Court held that “given Kirsch’s ownership and/or
control of the Westboume Defendants and the close unity
of interest and relationship between them, Kirsch

7

shares responsibility for the Westbourne Defendants’
violation of the Sanction Order.” Id. at 4.
While the District Court denied Plaintiffs’ request
for an entry of default, the Court did the functional
equivalent: it barred Mr. Kirsch from introducing any
testimony or evidence in his defense at trial. Plaintiffs,
by contrast, were permitted to use any of this excluded
evidence. Nov. 24, 2016, Order at 12. Finally, although
the Westbourne Defendants submitted thousands of
pages of discovery in response to Plaintiffs’ Request
for Production, because they were not initially Bates
stamped and because they were produced on August 1,
2016 when an Order entered on July 27,2016 required
them to be produced by July 25,2016 (before the Order
was entered), the Westbourne Defendants were not al­
lowed to produce any evidence or witnesses at trial.
And because Mr. Kirsch was deemed to control the
Westbourne Defendants, the Court extended that to
Kirsch.
A 3-day trial was held between January 25, 2017
and February 2,2017. During the trial, the district court
strictly enforced the sanctions order and barred any of
the Defendants from introducing any evidence. The dis­
trict court also limited Defendants’ cross-examination
to questions which tested the witnesses’ credibility.
Trial Court Findings
On January 23, 2017, the district court entered
judgment against all Defendants. Among other things,
the district court found that Mr. Kirsch created various

8

entities, including ARE and the Westbourne Defend­
ants, to funnel the assets subject to the Florida judg­
ment through a number of entities, Findings of Fact
and Law at 3-4. The district court found that it pos­
sessed personal jurisdiction over Kirsch because Kirsch
formed Rock Bay LLC in Nevada, filed a Certificate of
Fictitious Firm name that allowed it to do business in
Nevada under the names of “ARE” and “American Res­
idential Equities,” opened a bank account in Nevada
for Rock Bay, and used that bank account to funnel as­
set funds between the Westbourne Defendants. Id. at
14-15. The district court also found that Nevada courts
had jurisdiction over Mr. Kirsch on agency and alterego principals since Kirsch created and controlled each
of the Westbourne Defendants, who had their own ties
to Nevada. Id. at 20-23.

REASONS FOR GRANTING THE WRIT
I.

The Court Should Grant Certiorari to Clarify
the Standards for Imposing Discovery Sanc­
tions That Amount to an Entry of Default.

It is elemental to our system ofjustice that a party
be given the opportunity to defend against false accu­
sations in court. Courts have repeatedly recognized
that the “opportunity to refute unfavorable evidence
in some fashion ... is an ‘immutable’ principle of pro­
cedural due process.” See ASSE International, Inc. v.
Kerry, 803 F.3d 1059, 1075 (9th Cir. 2015) (citing
Greene v. McElroy, 360 U.S. 474,496 (1959)). Thus, this
Court has stated that while lower courts have broad

9
discretion in issuing sanctions in the form of eviden­
tiary exclusions, such sanctions must still comport
with the dictates of Due Process. Insurance Corp. oflr.
v. Compagnie Des Bauxites De Guinee, 456 U.S. 694,
705 (1982). To accord with Due Process, the Court ex­
plained, “any sanction must be ‘just’ [and] the sanction
must be specifically related to the particular ‘claim’
which was at issue in the order to provide discovery.”
Id. at 707.
Unfortunately, the Court has provided little guid­
ance since Compagnie Des Bauxites De Guinee as to
when a particular sanction is “just.” Given the fre­
quency with which courts around the country resort to
exclusion sanctions to punish discovery misconduct,
additional guidance is sorely needed.
In Young v. Johnny Ribeiro Bldg., 106 Nev. 88 (1990),
the Nevada Supreme Court articulated a comprehen­
sive test that—if adopted on a nationwide level—
would ensure that the sanctions did not run afoul of
the Due Process Clause. According to Young, before im­
posing sanctions, a Court must consider the following
factors:
[1] the degree of willfulness of the offending
party, [2] the extent to which the non-offending
party would be prejudiced by a lesser sanc­
tion, [3] the severity of the sanction of dismis­
sal relative to the severity of the discovery
abuse, [4] whether any evidence has been ir­
reparably lost, [5] the feasibility and fairness
of alternative, less severe sanctions, such as
an order deeming facts relating to improperly

10
withheld or destroyed evidence to be admitted
by the offending party, [6] the policy favor­
ing adjudication on the merits, [7] whether
sanctions unfairly operate to penalize a party
for the misconduct of his or her attorney, and
[8] the need to deter both the parties and fu­
ture litigants from similar abuses.
Young, 106 Nev. at 93. Unfortunately, and as explained
in further detail below, none of the courts below fol­
lowed the requirements of Young. This Court should
grant certiorari to clarify that, when imposing sanc­
tions akin to a default order—as happened here—
courts must properly analyze all of the Young factors
to keep with the dictates of due process.
A. The Court Should Clarify That a Lower
Court May Not Bar a Party from Submit­
ting Evidence in His Defense for Failing
to Fulfill a Legally Impossible Discovery
Order.
The most important factor in Young is willful­
ness. The lower courts found that Mr. Kirsch had acted
willfully in failing to produce William Hirschkowitz,
the once CFO of several Kirsch entities, for deposition.
But none of the Nevada courts acknowledged the fact
that Mr. Kirsch was legally incapable of forcing Mr.
Hirschkowitz to appear in the first place.
It was undisputed below that Hirschkowitz was
not a party to this action, and that he was only CFO of
Westbourne from July 1, 2012 to July 1, 2013—long
before Plaintiff’s filed their lawsuit. Since that time,

11
Hirschkowitz operated his own accounting firm, and
while he provided accounting and outside CFO ser­
vices to some of the Defendant entities, he did so on
an ad hoc contractual basis.6 As a former employee,
neither Kirsch nor the Westbourne defendants had any
control over Hirschkowitz. See JSC Foreign Econ. Ass’n
Technostroyexport v. Int’l Dev. & Trade Servs., 220
F.R.D. 235,237 (S.D.N.Y. 2004) (vacating deposition no­
tices because “there is no basis to conclude that the
entity defendants have control over [two former offic­
ers]”); United States v. Afram Lines, Ltd., 159 F.R.D.
408,414 (S.D.N.Y. 1994) (refusing to require deposition
by notice where “the proposed deponent is not an em­
ployee of the opponent and may, in fact, be beyond
its control,” and where allowing deposition by notice
would result in “not merely the waiver of formal sub­
poena procedures,” but also sanctions on the opponent
“for failing to produce witnesses who are in fact beyond
its control”).
And while the law would have allowed Mr. Kirsch
to compel Hirschkowitz if the latter were deemed a
managing agent, there was no support in the record to
make such a finding. In considering whether an indi­
vidual is a managing agent, courts must consider five
factors:
1) whether the individual is invested with gen­
eral powers allowing him to exercise judgment
and discretion in corporate matters; 2) whether
6 See Declaration of Hirschkowitz f 3, attached as Ex H. to
Defs’ Opp. to Renewed Motion to Strike.

12
the individual can be relied upon to give
testimony, at his employer’s request, in re­
sponse to the demands of the examining
party; 3) whether any person or persons are
employed by the corporate employer in posi­
tions of higher authority than the individual
designated in the area regarding which the in­
formation is sought by the examination; 4) the
general responsibilities of the individual re­
specting the matters involved in the litiga­
tion; and 5) whether the individual can be
expected to identify with the interests of the
corporation.
Dubai Islamic Bank v. Citibank, N.A., 2002 U.S. Dist.
LEXIS 9794, No. 99 Civ. 1930, 2002 WL 1159699, *2
(S.D.N.Y. May 31,2002) (internal citation omitted) (col­
lecting cases). The preponderance of these factors cut
against Plaintiffs. First, Hirschkowitz was only provid­
ing ad hoc contractual work for Defendant entities af­
ter July 2013—he had no power to exercise judgment
and discretion. Second, he plainly could not be relied
upon to give testimony at Defendants’ request—as ev­
idenced by his repeated refusal to appear for deposi­
tion. Third, his refusal to appear for deposition also
shows that he that he did not identify with Defendants’
interests. See JSC Foreign Econ. Ass’n Technostroyex­
port, 220 F.R.D. at 238 (rejecting claim that former em­
ployee was subject to deposition by notice because his
failure to appear for deposition “even at the expense of
sanctions for the entity defendants” precluded the con­
clusion that his “interests are identified with those of
the entity defendants”).

13
In short, the trial court sanctioned Mr. Kirsch for
failing to accomplish something that was beyond Mr.
Kirsch’s legal ability. Accordingly, this Court should
clarify that a court violates due process where it im­
poses severe discovery sanctions against a party who
failed to comply with a legally impossible order.
B. The Court Should Clarify That a Show­
ing of Prejudice is Necessary to Issue
Sanctions Barring a Party from Submit­
ting Evidence in His Defense.
Putting aside the deficiencies in the district court’s
findings on willfulness, Plaintiffs failed to present any
evidence—and the district court failed to make any
finding—that they suffered any prejudice or that any
evidence was lost as a result of Mr. Kirsch’s actions.
This case thus raises a crucial question as to whether
a discovery sanction amounting to a de facto default
order may be imposed, consistent with the Due Process
Clause, without requiring the other side to show some
modicum of prejudice. This Court should grant certiorari
to clarify that a prejudice showing must be required for
a such a sanction to be deemed constitutional and
“just” under Insurance Corp. of Ir. v. Compagnie Des
Bauxites De Guinee, 456 U.S. 694, 705 (1982).
Indeed, this case illustrates the perversity of not
insisting on such a requirement. Mr. Kirsch had al­
ready sat for depositions with the Plaintiffs on at least
three occasions, including a post-judgment deposi­
tion in Florida that lasted three days, a deposition in

14
California in connection with a matter pending in Cal­
ifornia, and a third deposition in Florida as a person
most knowledgeable.7 At no point were Plaintiffs able
to identify a single piece of evidence or subject of in­
quiry that they were unable to acquire or explore as a
result of Kirsch failing to sit for a fourth deposition.
Plaintiffs also obtained a veritable mountain of
discovery over the course of their litigation against
Defendants in Florida, Michigan, and California. For
example, they had already taken the deposition of
Hirschkowitz four times, Westbourne’s GC, the manag­
ing director of Statebridge, and another person most
knowledgeable from Westbourne, named Pamela Perrot—all of which Plaintiffs relied on extensively at
trial.8 Plaintiffs obtained all the bank records from
Rock Bay, as well as documents relating to and tracing
ownership of assets allegedly owned by ARE. Again,
Plaintiffs were unable to identify a single piece of evi­
dence that they could only obtain through additional
discovery.9 Nor were Plaintiffs able to identify any evi­
dence that was irreparably lost.
It is axiomatic in due process law that a discovery
“sanction should be proportional to the wrong.” See,
7 Declaration of Jeffrey Kirsch in Support of Opposition to
Motion to Strike Answer and Enter Default M 7-8.
8 Trial Transcript Day 1, at 37-88, 101-139.
9 Indeed, the allegations of transfer, and comingling of funds
laid out in the motion to strike and the preceding opposition to
the motion to dismiss were based on the extensive discovery that
was undertaken in the Florida action. See Motion to Strike 5-7
(citing Opposition to Motion to Dismiss).

15
e.g., Okaw Drainage District v. National Distillers &
Chemical Corp., 882 F.2d 1241, 1248 (7th Cir. 1989).
One cannot assess proportionality without determin­
ing first what harms the misconduct caused. In this
case, there was no evidence of harm, yet the district
court imposed among the harshest of possible sanc­
tions. This Court should grant certiorari to declare that
such conduct is unconstitutional.
C. The Court Should Clarify That Courts
Must Consider the Feasibility or Fairness
of Alternative, Less Severe Sanctions Be­
fore Barring a Party from Submitting
Any Evidence in Their Defense.
This case also raises an opportunity for the Court
to clarify that a trial cannot impose sanctions amount­
ing to a de facto default as a first resort, but must
consider whether less severe sanctions will accomplish
the same result.
The Nevada Supreme Court actually required as
much in Young, holding that a court abuses its discre­
tion where it does not consider the feasibility or fair­
ness of sanctions short of ordering default. However, as
evidenced by this case, the Nevada courts have not
hewed to Young’s requirements in this respect. Here,
there were numerous sanctions the court could have
imposed—for example, imposing financial penalties on
Kirsch and the Westbourne defendants. Such sanctions
would have also satisfied the need to deter any future

16
discovery misconduct. The courts never entertained
such options.
Accordingly, this Court should grant certiorari to
declare that the Due Process Clause requires courts to
impose the least severe sanction necessary to deter dis­
covery misconduct.
II.

This Court Should Grant Certiorari to Af­
firm that General Jurisdiction Will Only
Attach Where a Substantial Proportion of
Defendant’s Activities Are in That State.

This Court has long recognized that the “Due Pro­
cess Clause .. . operates to limit the power of a State
to assert in personam jurisdiction over a nonresident
defendant.” Helicopteros Nacionales de Colombia, S.A.
v. Hall, 466 U.S. 408, 413-14 (1984). “Due process re­
quirements are satisfied when in personam jurisdic­
tion is asserted over a nonresident. . . defendant that
has ‘certain minimum contacts with [the forum] such
that the maintenance of the suit does not offend tradi­
tional notions of fair play and substantial justice.’ ” Id.
at 414 (alteration in original) (quoting Int’l Shoe Co. v.
Washington, 326 U.S. 310, 316 (1945)). Where the req­
uisite “minimum contacts” exist, the exercise of per­
sonal jurisdiction over the defendant must also be
“reasonable []” in light of factors such as “the burden
on the defendant, the interests of the forum State, and
the “plaintiffs interest in obtaining relief.” Asahi Metal
Indus. Co. v. Superior Court, 480 U.S. 102, 113 (1987);
see also Burger King Corp. v. Rudzewicz, 471 U.S. 462,

17
477-78 (1985). A court may only exercise “general ju­
risdiction” over a corporation if “the continuous corpo­
rate operations within a state are so substantial and of
such a nature as to justify suit against it on causes of
action arising from dealings entirely distinct from
those activities.” Goodyear Dunlop Tires Operations,
S.A. v. Brown, 131 S. Ct. 2846, 2853 (2011) (internal
quotation marks and alterations omitted). “For an in­
dividual, the paradigm forum for the exercise of gen­
eral jurisdiction is the individual’s domicile.” Id. at
2853-54.
Here, it was undisputed that Mr. Kirsch was not
domiciled in Nevada. Yet, the Nevada courts found
that they could properly exercise jurisdiction over him
based on a few fleeting contacts in the state. However,
given that these alleged contacts constituted a tiny
percentage of his overall business activities, he cannot,
under this Court’s precedent, be deemed to have been
“at home” in Nevada.
The Supreme Court clarified in Goodyear and
Daimler clarified that “[a] court may assert general ju­
risdiction over foreign (sister-state or foreign-country)
corporations to hear any and all claims against them
when their affiliations with the State are so ‘continu­
ous and systematic’ as to render them essentially at
home in the forum State.” Daimler, 187 L. Ed. 2d 624,
633 (quoting Goodyear, 564 U.S. at 919). The “para­
digm” forums in which a corporate defendant is “at
home,” the Court explained, are the corporation’s place
of incorporation and its principal place of business. Id.;
Goodyear, 564 U.S. at 924. The exercise of general

18
jurisdiction is not limited to these forums; in an “ex­
ceptional case,” a corporate defendant’s operations in
another forum “may be so substantial and of such a
nature as to render the corporation at home in that
State.” Id. at 640, n.19.
Crucially, the Court held in Daimler that “the gen­
eral jurisdiction .inquiry does not focus solely on the
magnitude of the defendant’s in-state contacts.” Id. at
641, n.20 (internal quotation marks and alterations
omitted). Rather, the inquiry “calls for an appraisal of
a corporation’s activities in their entirety”; “[a] corpo­
ration that operates in many places can scarcely be
deemed at home in all of them.” Id.
In this case, the lower courts engaged in no fact­
finding regarding Mr. Kirsch or the other Defendants’
nationwide business activities. Instead, the District
Court concluded that Kirsch has substantial, continu­
ous, and systematic contact with Nevada based on:
(1) his causing the formation of Rock Bay and Sloane
Parke, two Nevada LLCs; (2) his filing a fictitious firm
name certificate with the Clerk of County so that Viz­
caya could do business as “ARE” and “American Resi­
dential Equities”; (3) his opening a bank account for
Rock Bay in Nevada; (4) his filing articles of dissolution
for Rock Bay; (5) his causing checks payable to Judg­
ment Debtors to be deposited into the Rock Bay account;
(6) his seeking a protective order to halt Redwood’s
post-judgment discovery; and (7) his filing an appeal

19
before the Supreme Court of Nevada when the afore­
mentioned protective order was denied.10
At the time the instant lawsuit was filed in Ne­
vada, Mr. Kirsch had caused the formation of some 80
LLCs in states other than Nevada; he had opened up
at least 80 bank accounts in states other than Nevada;
he has participated in business ventures in at least 40
states other than Nevada; and he had managed at
least 62 employees in states other than Nevada. Under
this Court’s precedent, such contacts are not sufficient.
The Nevada Supreme Court’s judgment to stand
would not merely inflict an injustice on Mr. Kirsch. Ra­
ther, it would have a ripple effect across all individuals
in the United States and abroad who have fleeting
encounters in the state of Nevada. It is important for
all corporations and individuals—both foreign and
domestic—to operate within a framework of clear, uni­
formly applied jurisdictional rules that permit “defend­
ants to structure their primary conduct with some
minimum assurance as to where that conduct will and
will not render them liable to suit.” Burger King, 471
U.S. at 472 (internal quotation marks omitted). The
Nevada Supreme Court’s decision represents an out­
lier in personal jurisdiction law that would undermine
this predictability.

10 See Findings of Fact and Conclusions of Law, filed June
26, 2017.

20

For these reasons, the Court should grant certio­
rari to bring Nevada into alignment with the rest of
the courts on the subject of minimum contacts.

CONCLUSION
For the foregoing reasons, this Court should grant
the Petition for Certiorari and reverse the decision of
the Nevada Supreme Court.
Dated: February 11,2020
Respectfully submitted,
Jeffrey Kirsch
Pro Se
77 Harbor Dr.
Key Biscayne, FL 33149
two@beach@aol. com
305-498-8265

